IN THE
SUPREME COURT OF THE UNITED STATES
United States Court ofAppealsfor the Sixth Circuit

Veretta Burnett

— PETITIONER

(Your Name)
VS.
Merrick Garland et. al.

I

— RESPONDENT(S)

PROOF OF SERVICE

ill
p
D

e>

D
D
D
I
h

I,

Veretta Burnett

-------------:--------------, do swear or declare that on this date,
, 2QJJ_, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
September 01.

The names and addresses of those served are as follows:
—Merrick Garland etal United States Department of Justice 950 Pennsylvania Avenue, NW Washington, DC 20530, Saima Mohsin United
States Attorney Office, 211 W Fort Street, Suite 2001 Detroit ML48226,Christopher Wray (Chris Hess-7, David Harmon, And Gwen
R"S1n!ha!’935 Pennyslvannia Avenue NW Washington DC 20535, Department Of Health and Human Services, Jacket number- 07
-4/42U7N Hubert H. Humphrey Building,200 independence Avenue, SW Washington, BC2U20J, City oj Highland Park ( William T. Ford
Mayor Yopp, former Chief ofPolice Theodore Caldwell II ,12050 Woodward, Highland Park Mi 40203,James McGinnis 985 E. Jefferson
, 100 ’Jietroil > ML48202, Hostile Witness andformer aiiurney Christopher Tralnot and Associates, (Shawn Cabot - p64021) 9750
Highland Rd. Whitelake, ML 48386

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

September ftl.

,20

’lg:

ire

Page 25 of 25

